 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE ANTIGEN PREPARATION




                    JANET REHNQUIST
                      Inspector General

                      October 2002
                     OEI-09-00-00530
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE ANTIGEN PREPARATION




                    JANET REHNQUIST
                      Inspector General

                      October 2002
                     OEI-09-00-00530
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
                        EXECUTIVE SUMMARY

OBJECTIVE

          To determine if the Centers for Medicare & Medicaid Services’ (CMS) reimbursement policy
          for the provision of antigens for allergen immunotherapy accurately reflects the resources used
          in a typical physician’s practice.



BACKGROUND

          Allergies, hypersensitive immune reactions to substances that are otherwise harmless, afflict one
          in six Americans. Substances which can trigger allergies are called antigens, and include such
          things as dust, molds, and pet dander. Symptoms range from mild irritation to life-threatening
          anaphylaxis. Medicare pays for the treatment of allergies through allergen immunotherapy, or
          allergy shots. In this therapy, a physician administers gradually increasing concentrations of an
          antigen in order to desensitize the patient. Treatment generally lasts from 3 to 5 years.

          The preparation of antigens for allergy shots, but not the injection itself, is billed under Current
          Procedural Terminology (CPT) code 95165, professional services for the provision of
          antigens for allergen immunotherapy; single or multiple antigens, per dose. Traditionally,
          a dose was defined as the amount of serum administered in each allergy shot. In 1998, the
          CMS revised the definition to be the total amount of serum delivered each treatment session,
          regardless of the number of shots. After receiving many comments from specialty
          organizations, the CMS changed the definition in the November 1, 2000 Federal Register,
          effective January 1, 2001, to “a one cc aliquot [part] from a single multidose vial.”

          We conducted a survey of a stratified random sample of 306 physicians who provide allergen
          immunotherapy. We received responses from 186 of these for a response rate of 60.8 percent.
          In addition, we conducted follow-up interviews with several sample physicians, interviewed and
          reviewed documentation from 25 of 27 Medicare carriers, and reviewed the Medicare law,
          regulation, and policy related to CPT code 95165.




Antigen Preparation                                    1                                  OEI-09-00-00530
FINDINGS

Resources used in allergen immunotherapy differ from CMS assumptions

          Based on our analysis, we found that data used by CMS to calculate practice expense inputs
          for CPT code 95165 are not accurate. The CMS estimates that in a typical practice,
          physicians provide immunotherapy from 10 cc multidose vials in shots of 1 cc each. We found
          that the median vial size is 4.9 cc and the median injection volume is 0.47 cc. In addition, while
          the current calculations assume 5 antigens are in each vial of immunotherapy, we found that a
          typical vial contains approximately 8 antigens. Lastly, while the new definition of a dose
          incorporates 2.2 minutes of clinical staff time, our research indicates that each dose requires 3.0
          to 4.5 minutes to prepare. Practice expense calculations for CPT code 95165 do not factor in
          the dilution boards the typical provider creates, but the allocation per unit for this expense
          would probably be minimal.

Almost 75 percent of providers are aware of the new definition of a dose

          Nearly three-quarters of immunotherapy providers know about the revision, mainly through
          their specialty society. However, only 44 percent of all immunotherapy providers have
          changed their billing as a result. In addition, although the revision was intended for practice
          expense calculation and billing purposes only, approximately 14 percent of immunotherapy
          providers have begun giving 1 cc injections or changed other practice patterns. Providers
          generally prefer the traditional definition of a dose as the amount of antigen given in a single
          injection over the current or an alternate definition.



CONCLUSION

          Based on our analysis of data and information from a random sample of allergists, we conclude
          that CMS did not have accurate data when it calculated the practice expense component for
          CPT code 95615. After consulting with CMS, we conclude that CMS should use this report
          to help refine the practice expense inputs for this code as part of their normal process rather
          than making an immediate change. Since some physicians modified their practice based on the
          changes in reimbursement, CMS should emphasize that physicians need modify only their billing
          to comply with the new definition in any guidance it plans to offer in the future. We also noted
          that most physicians rely on their specialty societies, rather than CMS or its carriers, for
          information about Medicare policy changes. Therefore, to ensure physicians are getting
          accurate information, CMS and the carriers may want to work directly with the societies to
          explain any policy changes and revisions.



Antigen Preparation                                    2                                 OEI-09-00-00530
                              TABLE OF CONTENTS


                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS

          Typical immunotherapy practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Practice expense inputs inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Providers aware of revision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES


          Appendix A: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Appendix B: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Appendix C: P-values for Selected Comparisons . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Antigen Preparation                                                   3                                            OEI-09-00-00530
                                        INTRODUCTION

OBJECTIVE

          To determine if the Centers for Medicare & Medicaid Services’ (CMS) reimbursement policy
          for the provision of antigens for allergen immunotherapy accurately reflects the resources used
          in a typical physician’s practice.

BACKGROUND

Allergies and Their Treatment

          Allergies afflict one in six Americans. People with allergies experience hypersensitive immune
          system responses to substances, called allergens, which are harmless to non-allergic people.
          Common allergens include pollen, mold, and animal dander. Allergens are a type of antigen,
          which is any foreign substance which triggers an immune response, including substances which
          are universally harmful like pathogenic viruses and bacteria. Allergy symptoms range from mild
          irritation to anaphylaxis, a medical emergency involving an acute systemic allergic reaction.

          The CMS pays for allergy testing of Medicare beneficiaries and for their treatment through
          allergen immunotherapy. In this treatment, more commonly known as allergy shots, a physician
          administers gradually increasing amounts of an allergen to the patient over a period of several
          weeks. Upon reaching a maintenance level, the patient continues to receive injections on a
          regular basis, generally for at least 3 to 5 years. Allergy shots are normally reserved for those
          patients experiencing intolerable symptoms that do not respond to other therapies.

          Allergists and immunologists, who specialize in the diagnosis and treatment of allergies, provide
          the bulk of allergen immunotherapy services for Medicare beneficiaries. In addition, many
          otolaryngologists (commonly known as ear, nose, and throat doctors, or ENTs) treat allergies,
          especially those affecting the respiratory system. General internists, family practitioners, and
          other physicians also provide some immunotherapy services.1

          The practice of immunotherapy varies among providers. In one common mode, a physician
          creates a “treatment set” by first creating a vial containing the specific antigen mix for a given
          patient. From that vial, the physician then makes multiple diluted vials to



          1
           In this report, we will refer to allergists and immunologists as “general allergists” and otolaryngic allergists
as “otolaryngic allergists” or “ENT allergists.”

Antigen Preparation                                                4                                          OEI-09-00-00530
          provide lower concentration mixes that will be needed to “step up” the patient to the
          maintenance level.

          Alternatively, a provider may create a treatment or dilution Figure 1: Dilution Board
          board as a first step in administering allergy shots (see
          Figure 1). As with treatment sets, boards contain multiple
          dilutions of antigens. Rather than dilutions specific to each
          patient, however, the provider creates diluted vials of each
          antigen serum used in his or her practice. The doctor may
          then draw particular antigens from the board and mix them
          in a multidose vial to be used for a given patient over
          multiple treatment sessions; alternatively, the doctor may
          then treat “off the board,” meaning he or she mixes and
          delivers each injection individually and directly from the board.

          Instead of using his or her own treatment sets or boards, a provider may choose to order
          treatment vials for each patient from a supplier, and perform only injection and observation
          services. No matter what practice is employed, antigen mixes have a finite “shelf life,” which is
          inversely proportional to their strength, and must be discarded if not used within a certain time.

Payment for Physician Services

          Since 1992, Medicare has paid for physician services under a national fee schedule. Under this
          strategy, each medical procedure is assigned a relative value which measures the cost to
          perform the service compared to the cost to perform other covered services. Three factors
          determine the relative value of a service: physician work, practice expense, and malpractice
          expense. The physician work component, which is a measurement of the time, intensity of
          effort, and skill required for a service, constitutes 55 percent of the total value. Practice
          expense, which is 42 percent of the total, estimates the costs of doing business for a physician,
          including such expenses as staff salaries, overhead, and supplies. Malpractice expense, i.e., the
          cost of physician liability insurance, represents the remaining 3 percent. Payment for a given
          service is a function of its relative value and a geographic index based on the location where the
          service was provided.

          The American Medical Association’s Relative Value Update Committee was formed in 1991 to
          provide input on relative value units. In addition to recommending work inputs, the Committee
          comments on CMS’ proposed interim relative value units. The Committee is comprised of 29
          members, most of whom represent major specialty societies, including otolaryngology, but not
          allergy/immunology. An advisory commission embodying each of the 98 specialties in the
          Association’s House of Delegates provides support for the Committee.



Antigen Preparation                                    5                                OEI-09-00-00530
                 The Association plays another important role in fee schedule payments by appointing the panel
                 that maintains the list of Current Procedural Terminology (CPT) codes which are used by
                 providers to bill Medicare. The CMS adopted CPT codes in 1983 as part of its Common
                 Procedure Coding System. More
                 than 7,000 codes appear in the current
                 edition of the CPT manual.                          Table 1: Median 95165 billing by specialty
                                                                                                                                 Per unit
                                                                                                     Allowed
       CPT Code 95165                                                     Specialty       Year                     Units         allowed
                                                                                                     amount
                                                                                                                                 amount
              Medicare allowed approximately                 General          2000    $20.00     2.00         $8.35
              $98 million in charges for allergen            allergists
                                                                              2001    $24.90     3.00         $9.00
              immunotherapy codes in 2000.
              Nearly half of these charges,                  ENT              2000    $70.00     10.0         $8.14

              $47 million, were for CPT code                 allergists
                                                                              2001    $80.00     10.0         $8.65
              95165, professional services for the
                                                             Other            2000    $22.36     2.00         $8.36
              provision of antigens for allergen             physicians
                                                                              2001    $21.90     2.00         $8.82
              immunotherapy; single or multiple
              antigens, per dose. This code
              describes the preparation of antigen
              serums for use in immunotherapy, but not their injection. General allergists submitted about
              two-thirds of the claims for CPT code 95165, and ENT allergists account for about 20
Figure 2:
              percent. Most of the remainder come from internists, general practitioners, family doctors, and
Vial and
10 cc Syringe various group practices. Although per unit allowed charges are fairly constant across different
              specialties, ENT allergists bill more units (and receive greater reimbursement) per claim than
              other specialties (see Table 1).

                The interpretation of CPT code 95165 has been controversial. The code is unlike others in that
                it includes the concept of a ‘dose,’ which is not defined in the CPT manual. Traditionally,
                providers and payers defined a dose as the amount of antigen given in a single injection. In May
                1998, CMS updated the carrier manual to define a dose as “the total amount of antigen to be
                administered to a patient during one treatment session, whether mixed or in separate vials.”
                Private payers, however, did not adopt this change; as a result, they paid 590 percent more per
                unit of CPT code 95165 than Medicare in 1999.2 After this change was instituted, the Relative
                Value Scale Update Committee recommended that CMS return to the traditional definition for
                the 1999 fee schedule update. At the time, though, CMS did not feel a revision was
                appropriate because the Committee failed to comment on the direct practice expense inputs to
                the code. In November 2000, after receiving many comments from specialty organizations,
                CMS revised the inputs for CPT code 95165. In this revision, effective January 1, 2001,
                 CMS defines a dose, for billing and practice expense calculations, as “a one cc aliquot [part]


                 2
                  In fact, according to OIG analysis, private payers pay significantly more for nine allergen immunotherapy
       codes than Medicare, and significantly less for the CPT injection codes 95115 and 95117.

       Antigen Preparation                                            6                                        OEI-09-00-00530
          from a single multidose vial.”3 All practice expense inputs for CPT code 95165 are based on
          this definition, although no allocation is made for resources and work used to create treatment
          or dilution boards.

METHODOLOGY

Survey

          We used a mail survey as the primary tool to accomplish the purpose of this study. The survey
          solicited mainly factual information on physicians’ practice patterns, including the time and
          resources used in preparing and administering allergy shots. We conducted extensive pre-
          testing of the survey instrument to ensure that we were using accurate and understandable
          terminology and to improve the clarity and logical flow of the questions.

          We used a stratified random sample to select physicians to whom we sent the survey. From
          2001 National Claims History (NCH) data, we defined our universe as physicians appearing on
          claims for CPT code 95165 allowed in an office setting. These physicians were divided into
          three strata: allergists and immunologists in the first stratum, otolaryngologists in the second,
          and general practitioners, family doctors, internists, and group practices and clinics in the third.
          Together, these three strata accounted for 95 percent of the claims submitted for CPT code
          95165 in 2001.

          We randomly selected 102 physicians from each stratum to participate in the survey. To obtain
          names and addresses for these physician, we ran a match against CMS’ unique provider
          identification number, or UPIN, master file and did our own internet research, which resulted in
          301 valid names and addresses. We sent surveys to each of these addresses and received

              Table 2: Sample and response rate

                                   Physicians          Physicians        # of surveys        # of
               Stratum                                                                                      # usable
                                   in universe         in sample            mailed        responses

    1 (Allergists)                    2348                 102               101               69                 69

    2 (ENTs)                          1974                 102               101               65                 61

    3 (Others)                        1229                 102                99               52                 47

    Total                             5551                 306               301              186                 177



          responses from 186 (60.8 percent). Nine of these responses,

          3
           Medicare does not accept separate CPT codes for physicians who treat off the board. These physicians
submit claims based on the same 1 cc standard.

Antigen Preparation                                          7                                      OEI-09-00-00530
          however, did not contain usable information. Responses were weighted according to each
          stratum’s representation in the population. Our sample design and response rate were adequate
          to make projections to the universe with a reasonable degree of precision. Table 2 (previous
          page) shows selected information for the three strata.

          Responses to each survey question varied greatly; for instance, respondents reported using
          from 1 to 38 antigens in a multidose vial and injecting from .05 cc to 4.0 cc of serum in each
          allergy shot. Given this variation, we used the median as representative of a ‘typical’ practice,
          since it is less affected by extreme values than the arithmetic mean. We received a large number
          of zero responses concerning questions about the amount of clinical staff time spent creating
          boards and vials and about the number of boards prepared in a year. For these questions, the
          median may not be an appropriate representation of a typical practice, so we include the mean
          as well. In all such cases, however, we were able to make comparisons among subgroups only
          with mean values.

          Non-respondent analysis. We used chi-square tests and linear regression to compare non-
          respondents to respondents in terms of their stratum, year 2001 claims volume (of CPT code
          95165), Medicare patient volume, mean number of services per claim, mean number of
          services per patient, and population and urban/rural characteristics of the county in which they
          practice. None of these tests was significant at the 95 percent confidence level.

Other Data

          We interviewed 25 of the 27 Medicare carriers about guidance they received from CMS and
          any instructions they issued to their physician communities. We asked for copies of any written
          guidance distributed to providers, which we evaluated for completeness and clarity. Two
          carriers did not respond to numerous interview requests.

          In addition, we spoke to several representatives of national allergy associations and consulted
          with practicing physicians. Several local allergists allowed us to observe the preparation of
          antigens and helped us develop our survey instrument. Lastly, we reviewed laws, regulations,
          policy letters, and other materials related to CPT code 95165.


          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.




Antigen Preparation                                   8                                OEI-09-00-00530
                                              FINDINGS

          We primarily used a national survey of a random sample of practitioners of allergen
          immunotherapy to develop the findings of this report. In addition to the survey, we interviewed
          staff and evaluated guidance documents from Medicare carriers. Lastly, we reviewed policy
          and regulations concerning CPT code 95165 and spoke with allergen immunotherapy
          providers. Based on our analysis, we found that current practice expense calculations do not
          accurately reflect typical practices among immunotherapy providers. Also, while most
          providers are aware of the new definition of a dose for CPT code 95165, most say it does not
          correspond with the way they provide allergen immunotherapy.



Physicians typically use dilution boards to prepare multidose
vials

Most physicians create several boards per year

          More than 75 percent of providers indicate that they create boards either for directly treating
          patients or as a first step in creating multidose vials. Nearly all ENT allergists use boards in
          some fashion, compared to 63 percent of general allergists and 69 percent of other physicians.
          Regardless of specialty or mode of practice,              Figure 3: More ENT allergists create boards
          the typical provider prepares 3.6 (median;
          mean=7.6) boards per year. Physicians in
          counties located entirely in metropolitan areas
          tend to prepare boards more often than their
          less urban counterparts, as do physicians who
          at least sometimes treat off the board. In
          addition, physicians who provide allergen
          immunotherapy, but do not identify themselves
          as allergists, produce fewer boards than ENT
          or general allergists.4

          Physicians and their staff spend about
          46 minutes (median; mean=93 minutes)
          creating each board. The greatest amount of
          time is attributed to registered nurses, though
          physicians, licensed vocational


          4
          We found no evidence of a relationship at the 95 percent confidence level between the number of boards
prepared and the number of the physician's patients on allergen immunotherapy.

Antigen Preparation                                           9                                       OEI-09-00-00530
          nurses, medical assistants, and other staff, such as allergy technicians, sometimes contribute.5
          Otolaryngic allergists spend significantly more time (167 minutes) preparing each board than do
          general allergists (66 minutes) or other specialties (63 minutes). We found no evidence,
          however, that the amount of staff time needed is associated with treating off the board. In
          addition, physicians who submitted a greater number of claims of CPT code 95165 tend to
          take more time preparing boards. This seems logical in that high-volume practices may require
          more antigens or larger volumes of antigen on each board.6

Fewer than 20 percent of providers treat off the board

          Most physicians prepare multidose vials of                       Figure 4: Fewer ENT allergists treat off the board
          allergen immunotherapy from a treatment or
          dilution board rather treat off the board.
          About 81 percent of physicians provide
          immunotherapy exclusively from multidose
          vials. Another 14 percent use a combination
          of treating off the board and vials, while only
          5 percent treat exclusively off the board.
          Treating off the board is much less common
          among ENT allergists (5.45 percent) than
          either general allergists (26.6 percent) or
          other specialties
          (24.8 percent).

          Administering shots directly off the board is a
          practice quite different from first creating
          multidose vials for each patient. As such,
          treating off the board is an important factor in the outcomes of several other survey questions.
          Time spent preparing vials, the number of injections given per treatment session, and a
          provider’s response to the January 2001 change all are influenced by this practice. Each of
          these effects will be discussed later in this report.




          5
          A single physician rarely uses all of these types of staff, but each type is used by at least one physician in
the sample.

          6
           This effect is independent of the specialty of the physician.



Antigen Preparation                                             10                                        OEI-09-00-00530
More than three-fourths of physicians purchase their allergen immunotherapy
supplies individually

          An overwhelming proportion (85.5 percent) of practitioners purchase immunotherapy supplies
          individually. Even in group and clinic settings, more than three-quarters of physicians purchase
          their supplies independently. Physicians who submit a relatively large number of claims for CPT
          code 95615 (more than 50 in the first 6 months of 2001) are more likely to buy supplies on
          their own. Only one respondent to the survey had a purchasing arrangement with other
          physicians outside his or her group.

          We followed up with nine physicians to determine why they did not enter into group purchasing
          arrangements. Almost all identified the lack of standardized antigen serum across suppliers as a
          primary reason for maintaining individual arrangements. They explained that serums differ
          across manufacturers and techniques for mixing antigens and diluent are directly related to type
          of serum obtained from a specific supplier. Therefore, it would be difficult to get each physician
          in a group purchasing arrangement to agree to the same supplier. According to our
          interviewees, since most physicians are able to negotiate some discounts on allergen
          immunotherapy supplies purchased individually, the difficulty in designing a group arrangement
          would likely outweigh any potential cost savings. In fact, nearly half of those interviewed had
          considered group arrangements at some point, but had ultimately decided against them.



Resources used in allergen immunotherapy differ from CMS
assumptions

          The one cc aliquot accepted by

                                            Table 3: Resources used in a typical practice differ from assumptions

          CMS as a typical injection of
          CPT code 95165 is much too                Resource              CMS Estimate             Survey Estimate
          large, according to our survey. Staff time                              2.2 minutes                3.0 minutes
          We found that the median
                                             Vial size                                  10 cc                    4.90 cc
          volume of an injection is
          about 0.47 cc, less than half the Number of antigens in                           5                       7.95
          figure in the Federal Register     vial

          (FR).7 About 48 percent of         Antigen volume as                         100%                         59%
          physicians typically give          percentage of total
          injections of .5 cc, and another
 Volume of injection                        1.0 cc                    0.47 cc
          31 percent inject even smaller

          amounts. The specialty of the physician has a strong relationship with the size of injection they





          7
           65 FR 65393, November 1, 2000.

Antigen Preparation                                   11                                 OEI-09-00-00530
     Figure 5: Vial size varies by specialty                        administer; 91 percent of ENT
                                                                    allergists give injections of .5 cc or less,
                                                                    compared to about 72 percent of other
                                                                    physicians. On average, physicians of
                                                                    all specialties give 1.6 injections per
                                                                    treatment session. Physicians who treat
                                                                    off the board tend to give more
                                                                    injections, an average of 2.1 compared
                                                                    to 1.5 for those who do not.

                                                                      The January 2001 definition of a dose
                                                                      assumes physicians typically draw
                                                                      doses from a 10 cc multidose vial. We
                                                                      found that about 51 percent of
                                                                      physicians use a 5 cc multidose vial in
                                                                      their practice while only 31 percent use
                                                                      a 10 cc vial. The remaining 18 percent
          of physicians are almost evenly divided between those that use vials of less than 5 cc capacity
          and those that use vials of greater than 5 cc, but less than 10 cc. A few respondents said they
          use vials even larger than 10 cc. The size of vial that is used is strongly correlated with the
          specialty of the provider, as shown in Figure 5. Without regard to specialty, the median
          capacity of a vial is 4.90 cc.

          The Federal Register publication assumes that 5 antigens are present in a typical multidose
          vial, without any diluent. According to our survey, a typical multidose vial contains
          approximately 8 antigens. Providers in a clinic setting use more antigens than others: 11.7 on
          average, compared to about 7.8 for solo practitioners or physicians in a single-specialty group.
          In addition, our survey indicates that a typical multidose vial contains only about 59 percent
          antigen by volume; the rest is diluent.

          According to our respondents, the current rule does not sufficiently account for the time needed
          to create multidose vials. The new definition of a dose incorporates 2.2 minutes of clinical staff
          time as a practice expense. Our survey data suggests that preparing antigens in a multidose vial
          requires closer to 3.0 (median) to 4.5 (mean) minutes of staff time per dose. Our limited visits
          to physicians’ offices, however, suggest that this figure may be inflated; additional direct
          observation would be needed to confidently report the amount of time required. As with
          boards, our respondents attribute the greatest portion of time spent creating vials to registered
          nurses. Physicians who sometimes treat off the board in addition to using multidose vials
          dedicate less staff time (2.9 minutes per dose) to creating a vial than those that exclusively use
          vials (4.8 minutes per dose).




Antigen Preparation                                   12                                 OEI-09-00-00530
Almost 75 percent of providers are aware of the new
definition of a dose

Providers primarily rely on their specialty society or association for information

          Nearly three-quarters of physicians who provide allergen immunotherapy are aware of the

          January 2001 revision. A positive relationship exists between the number of patients for whom

          the physician provides immunotherapy and their probability of being aware of the revision. 

          Also, general allergists are more likely to know of the revision than ENT allergists, who, in turn,

          are more likely than other providers to be aware of the change.


          Specialty societies are important sources of information for providers. Fifty-nine percent of

          physicians first learned of the change from their society. In contrast, only 29 percent first

          learned of the change from their Medicare carrier. Non-allergists make up a large part of this

          group, reflecting their low rate of membership in allergy-related specialty societies.


          Although relatively few physicians learned of the revision from their carrier, the

          25 carriers we contacted all had received guidance from CMS on the new rule and had issued

          a provider bulletin explaining the change. Approximately half of the carriers we interviewed

          sent a newsletter to their physicians outlining the change and posted notices on their physician

          web site; the remainder only mailed a newsletter or bulletin. The majority of carriers (22 of 25)

          issued these instructions between November 2000 and January 2001, though one carrier did

          not issue formal instructions until June 2001.


          Most of the guidance issued by carriers reiterated the CMS guidance almost verbatim. We

          found most of the written notices to be clear and easy to understand, although four notices

          failed to adequately highlight information regarding CPT code 95165. We found that one

          notice was particularly confusing because it combined information for CPT code 95165 with

          information for CPT code 95115. On the other hand, one carrier offered several clinical

          examples in its bulletin to help clarify the new rule.





Antigen Preparation                                   13                                 OEI-09-00-00530
The revised definition has led some physicians to change billing and medical
practices

          Most physicians did not change their billing       Figure 6: Physicians' response to revision
          or medical practice because of the new
          definition. Approximately
          57 percent of physicians were either
          unaware of the revision or did not make any
          changes in response to it. Several of the
          latter group explained that they had already
          been billing Medicare according to the
          January 2001 definition before it went into
          effect.

          Fifty-four percent of physicians who were
          aware of the new definition changed their
          billing as a result. About one-quarter of
          these physicians say they now bill 1 cc as a
          dose, as outlined in the Federal Register.
          Another 16 percent report that they no longer bill for dilutions. The remainder either did not
          specify the particular change or indicated a change other than the two listed above.

          Some experts expressed concern that the revision as published in the Federal Register would
          cause physicians to alter their medical practice as well as their billing. This concern is borne out
          somewhat by our data: almost 20 percent of physicians who were aware of the new definition
          say they have changed how they administer allergen immunotherapy in response. Some of these
          explained that they now administered 1 cc as a dose for each Medicare patient, while others
          altered other aspects of their practices. The CMS, however, did not intend to dictate the
          practice of medicine and, in fact, issued an update to the carrier manual in September 2001 to
          clarify this point.

Only 11 percent of practitioners prefer the new definition of a dose

          According to our survey, more practitioners (46.7 percent) prefer the traditional definition of a
          dose, the amount of antigen administered in a single injection, than any other. Only about 11
          percent feel that the definition should be based on a particular volume of antigen, as it is
          currently. Seventeen percent of practitioners said that the definition of a dose should revert to
          the 1998 guidance of the total amount of antigen administered in an office visit.

          Many respondents, as well as physicians to whom we spoke in preinspection, offered specific
          recommendations for an improved definition. Several believe one of the main problems with
          both the past and current definitions is they do not account for time and


Antigen Preparation                                   14                                OEI-09-00-00530
          resources used to create treatment and dilution boards. Others suggest that the definition lacks
          consideration for the different strength dilutions used in creating vials. Still others say that it is
          more appropriate to base the definition on the number and strengths of allergenic extracts used
          rather than a volume of serum, which could contain any number of allergens. Several providers
          expressed sympathy for CMS’ dilemma in defining a dose amid a wide variety of practices.




Antigen Preparation                                     15                                 OEI-09-00-00530
                                    CONCLUSION

          The CMS commented on the working draft of this report and concurred with our findings. They
          indicated, however, that CMS will take no action at this time to address CPT code 95165. The
          CMS believes that using a 10 cc vial and 1 cc aliquots as the basis for practice expense
          calculations are not significantly different from using a 5 cc vial and 0.5 cc aliquots. Also,
          according to CMS, allocating the time and resources spent creating a dilution board to each
          individual dose would result in a minuscule, if any, change in payment. The clinical staff time
          required per dose, as stated in the report, requires more study before it could be used as a basis
          for changing reimbursement. The amount of antigen in a vial, however, is a practice expense
          issue that CMS has indicated they may address in the future.

          With CMS’ comments in mind, we conclude that although the agency did not have accurate data
          when it calculated the practice expense component for CPT code 95615, there is no compelling
          need for immediate change. Therefore, CMS could use the information in this report to help
          refine the practice expense inputs for CPT code 95165 as they see fit, perhaps in conjunction
          with the next meeting of the Practice Expense Advisory Committee. Since some physicians
          modified their practice based on the changes in reimbursement, CMS could continue to
          emphasize that physicians need modify only their billing to comply with the new definition in any
          guidance it plans to offer in the future. We also noted that most physicians rely on their specialty
          societies, rather than CMS or its carriers, for information about Medicare policy changes.
          Therefore, to ensure physicians are getting accurate information, CMS and the carriers may
          want to work directly with the societies to explain any policy changes and revisions.




Antigen Preparation                                   16                                OEI-09-00-00530
                                                                           APPENDIX A

                                      Glossary of Terms

Aliquot - A part of a whole which is a proper divisor of that whole [Webster’s]; used in the Federal
Register definition of a dose to mean an extract from a multidose vial.

Allergy - Reactions of the immune system to substances that, in most people, cause no symptoms.
[AAAAI website]

Allergen - A foreign substance that leads to allergies by starting an immune response. [AAAAI
wesbite]

Anaphylaxis - A medical emergency which involves an acute systemic allergic reaction. [AAAAI
website]

Antigen - A substance that can trigger an immune response. [AAAAI website]

Diluent - A liquid used to dilute the strength of an antigen serum.

Immunotherapy - (“allergy shots”) A form of preventive and anti-inflammatory treatment of allergy.
Immunotherapy involved gradually increasing doses of allergen(s), causing a decrease in immune
sensitivity to the allergen. [AAAAI website]

Maintenance level - The maximum antigen concentration and volume tolerated by a patient and at
which they will be given immunotherapy over a period of time.

Multidose vial - A vial containing antigen serum intended to be used for multiple injections of a
particular patient.

Treatment or dilution board - A board used to store multiple vials of antigen serums at various
concentrations, for use either in directly treating patients or in creating multidose treatment vials which
are then used to treat patients.

Treat off the board - Mix and inject shots directly from a treatment board rather than first creating
multidose vials.

Treatment set - A set of multidose vials, prepared for a single patient, which is made up of vials at
various concentrations and used to “step up” the patient to a maintenance level.



Antigen Preparation                                  17                                 OEI-09-00-00530
                                                                           APPENDIX B

                  Confidence Intervals for Selected Statistics

          The following table shows the point estimates and 95 percent confidence intervals for selected
          statistics, in the order they appear in the findings. In addition, the table shows point estimates
          and confidence intervals for both the median and mean, where applicable. These calculations are
          weighted according to the stratification described in the methodology.


                                                                 Point              95 Percent
                      Statistic                           N
                                                                Estimate        Confidence Interval
                                                  FINDING I
 Percent of physicians who use boards                   177       75.37%           69.24% - 81.49%

 Mean number of boards prepared per year                146        7.56               4.46 - 10.66

 Median number of boards prepared per year              146        3.57                2.87 - 3.73

 Mean time (minutes) spent preparing each               154        92.50             75.34 - 109.67
 board

 Median time (minutes) spent preparing each             154        45.71              28.37 - 67.49
 board

 Percent of physicians who treat exclusively using      166       80.66%           74.81% - 86.50%
 multidose vials
 Percent of physicians who mix using vials and          166       14.12%            8.98% - 19.26%
 boards

 Percent of physicians who treat exclusively off        166       5.22%              1.87% - 8.58%
 the board

 Percent of physicians who purchase supplies            176       85.53%           80.57% - 90.48%
 independently

 Percent of physicians in group/clinic settings           91      78.16%           69.79% - 86.53%
 who purchase supplies independently

                                                  FINDING II
 Mean volume (cc) of injection                          172        .578                .505 - .651



Antigen Preparation                                  18                                OEI-09-00-00530
                                                                     APPENDIX B

 Median volume (cc) of injection                    172      .470         .463 - .477
 Percent of physicians who inject .5 cc             172     47.57%      40.18% - 54.96%

 Percent of physicians who inject < .5 cc           172     30.80%      23.93% - 37.66%

 Mean number of injections per session              172      2.36         1.99 - 2.73

 Median number of injections per session            172      1.59         1.50 - 1.69

 Percent of physicians who use a 5 cc vial          155     50.84%      43.22% - 58.47%

 Percent of physicians who use a 10 cc vial         155     31.13%      24.09% - 38.18%
 Percent of physicians who use a <5 cc vial         155     9.54%       4.85% - 14.24%

 Percent of physicians who use between a 5 and      155     7.03%       3.14% - 10.92%
 10 cc vial

 Percent of physicians who use a >10 cc vial        155     1.45%          <= 3.07%

 Mean vial capacity (cc)                            155      6.91         6.33 - 7.49

 Median vial capacity (cc)                          155      4.90         4.83 - 4.97

 Mean number of antigens per vial                   155      9.84         8.84 - 10.83
 Median number of antigens per vial                 155      7.95         7.61 - 9.91

 Antigen as a proportion of vial volume             151     58.9%       55.55% - 61.78%

 Mean time (minutes) to create a dose               147      4.45         3.69 - 5.22

 Median time (minutes) to create a dose             147      2.98         2.91 - 4.05

                                              FINDING III
 Percent of physicians aware of revision            177     73.84%      67.81% - 79.88%

 Percent of physicians who learned of revision      122     58.93%      50.50% - 67.35%
 from their specialty society
 Percent of physicians who learned of revision      122     29.03%      21.26% - 36.80%
 from their carrier

 Percent of physicians who were unaware of          177     56.53%      49.33% - 63.72%
 revision or did nothing in response


Antigen Preparation                               19                      OEI-09-00-00530
                                                                       APPENDIX B

 Percent of physicians who were unaware of           177      26.16%      20.12% - 32.19%
 revision
 Percent of physicians who did nothing in            177      30.37%      23.53% - 37.21%
 response

 Percent of physicians who changed practice          177      14.12%      8.87% - 19.37%

 Percent of physicians who changed billing           177      39.52%      32.39% - 46.65%

 Percent of aware physicians who changed             122      54.21%      45.45% - 62.97%
 billing

 – percent of above who now bill 1 cc as dose            71   23.39%      13.46% - 33.32%

 – percent of above who no longer bill dilutions         71   16.26%      7.37% - 25.09%
 – percent of above who made some other                  71   63.63%      52.48% - 74.78%
 change

 Percent of aware physicians who changed             122      19.37%      12.33% - 26.41%
 practice

 Percent of physicians who prefer traditional        173      46.75%      39.40% - 54.09%
 definition

 Percent of physicians who prefer volume-based       173      11.15%      6.41% - 15.90%
 definition

 Percent of physicians who prefer 1998 definition    173      17.31%      11.59% - 23.03%




Antigen Preparation                                 20                      OEI-09-00-00530
                                                                                   APPENDIX C

                       P-values for Selected Comparisons
          The following table 1 shows the results t-tests for selected comparisons. Where we conducted
          pairwise tests of multiple groups, the particular groups tested are displayed, as is the threshold
          for determining significance (calculated using the Bonferroni method.) We used "=0.05 for all
          tests.

 Comparison                    Group                 Statistic         Threshold              Result
Mean number of         Rural counties                    2.93              n/a
boards by
                                                                                              significant
urban/rural            Urban counties                    8.82
character of county

Mean number of         (1) General allergists            9.51            0.0167           vs.(3) - significant
boards by specialty,
pairwise               (2) ENT allergists                6.96                             vs.(3) - significant

                       (3) Non-allergists                2.43                                        -

Median number of       Not off the board                 1.51              n/a
injections by
                                                                                              significant
treating off the       Off the board                     2.06
board

Number of antigens     (1) Solo practitioner             7.81            0.00833          vs.(3) - significant
by type of practice
                       (2) Group practice                7.80                             vs.(3) - significant

                       (3) Clinic                       11.74                                        -


          The next table shows a sample chi-square for the comparison between physicians specialty and
          treating off the board.
                                                                Number of respondents
               Specialty
                                                   Not off the board                 Off the board

   General Allergist                        60 (weighted=1278.77)            23 (weighted=463.63)

   ENT Allergist                            52 (weighted=1006.35)            3 (weighted=58.06)

   Non-allergist                            20 (weighted=292.14)             8 (weighted=96.39)
  Chi-square for treating off the board by specialty = 0.0004895 - significant




Antigen Preparation                                      21                            OEI-09-00-00530
                                  ACKNOWLEDGMENTS


This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General for
Evaluation and Inspections in the San Francisco Regional Office. Other principal Office of Evaluation
and Inspections staff who contributed include:

Scott Hutchison, Project Leader
Pamela Minniear, Program Analyst
Camille Harper, Program Analyst
Thomas Purvis, Program Analyst
Chris Tarbell, Program Analyst
Stephanie Lattin Program Specialist


This inspection team would like to thank all the respondents to the survey. We would like to particularly
thank the physicians who assisted us in designing the survey instruments and reviewing the background
section of the report.




For information or copies of this report, please contact the Office of Inspector General’s Public Affairs
office at (202) 619-1343.
